Office of Audits
Office of Inspector General
U.S. General Services Administration




Audit of GSA’s
Improper Payments
Performance
Report Number A120002/B/F/F12002
March 9, 2012
                      Office of Audits
                      Office of Inspector General
                      U.S. General Services Administration


                                   REPORT ABSTRACT
                             Audit of GSA’s Improper Payments Performance
                             Report Number A120002/B/F/F12002
                             March 9, 2012
OBJECTIVE
                             WHAT WE FOUND
The audit objective was to
determine if GSA is in       GSA has complied with IPERA for FY 2011; however, based on our review we
                             identified the following:
compliance with the
Improper Payments            Finding 1 – GSA’s process for reporting the results of its payment recapture
Information Act of 2002      audit program need improvement.
(IPIA) as amended by the     Finding 2 – GSA’s construction program was improperly excluded from the
Improper Payments            payment recapture audit program.
Elimination and Recovery     Finding 3 – GSA may be using an improper source of funds to reimburse the
Act of 2010 (IPERA)          recapture audit contractor.
regarding the improper       Finding 4 – The improper payments program management controls are
payments it reported in      insufficient.
Fiscal Year (FY) 2011.
                             Finding 5 – The recovery audit contract does not contain all appropriate IPERA
                             and GSA directive references.
                             WHAT WE RECOMMEND
                             The Chief Financial Officer should:
                                 1. Report the identified, recovered and outstanding amounts related to
                                    improper payments in the payment recapture audit program in a
                                    manner consistent with financial reporting requirements;
                                 2. Improve tracking and aging of all outstanding improper payment
                                    claims;
                                 3. Include all GSA programs and activities in the payment recapture audit
                                    program;
                                 4. Seek clarification from OMB to ensure the proper source of funds is
                                    used to reimburse the recapture audit contractor;
                                 5. Issue official policy providing guidance to Agency personnel regarding
                                    the reporting of improper payments and the implementation of the
                                    IPERA; and,
Finance and Information          6. Review and modify, as necessary, the payment recapture audit
Technology Audit Office             contract to ensure it contains all clauses required by applicable laws,
(JA-F)                              regulations and GSA orders.
1275 First Street, NE
Suite 227                    MANAGEMENT COMMENTS
Washington, D.C. 20417       Except for finding 3, management agreed with our findings and
(202) 357-3620               recommendations. The CFO’s complete response is presented in Appendix B.

                                                      i
Table of Contents
Introduction .............................................................................................................. 1
Results
Finding 1 – GSA’s process for reporting the results of its payment recapture audit
            program need improvement .................................................................... 3
                 Recommendation 1 ................................................................................. 3
                 Recommendation 2 ................................................................................. 3
Finding 2 – GSA’s construction program was improperly excluded from the
                 payment recapture audit program............................................................ 3
                 Recommendation 3 ................................................................................. 4
Finding 3 – GSA may be using an improper source of funds to reimburse the
                 recapture audit contractor. ....................................................................... 4
                 Recommendation 4 ................................................................................. 4
Finding 4 – The improper payments program management controls are
                 insufficient. .............................................................................................. 4
                 Recommendation 5 ................................................................................. 5
Finding 5 – The recovery audit contract does not contain all appropriate
                 IPERA and GSA directive references. ..................................................... 5
                 Recommendation 6 ................................................................................. 5


Conclusion................................................................................................................ 6
Management Comments .......................................................................................... 6

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Management Comments .............................................................. B-1
Appendix C – Report Distribution ....................................................................... C-1




                                                                iii
Introduction
According to the U.S. Government Accountability Office (GAO), federal agencies
reported an estimated $115.3 billion in improper payments, (a decrease of $5.3 billion
from the prior year reported estimate of $120.6 billion)1 out of the approximately $2
trillion in payments made to individuals, businesses and other entities in Fiscal Year
(FY) 2011. An improper payment occurs when the funds go to the wrong recipient, the
amount paid is incorrect, documentation is not available to support the payment, or the
recipient uses the funds in an improper manner. Most of these improper payments are
the result of inadequate recordkeeping, inaccurate eligibility determinations, inadvertent
processing errors, the lack of timely and reliable information to confirm payment
accuracy, or fraud.

The Improper Payments Information Act of 2002 (IPIA) was enacted to enhance the
accuracy and integrity of federal payments by providing a framework that allows federal
agencies to identify the specific causes of their improper payments and implement
necessary solutions to reduce them. Prompted by Executive Order 13520, IPIA was
amended by the Improper Payments Elimination and Recovery Act of 2010 (IPERA).
The Office of Management and Budget issued Memorandum 11-16 (OMB M-11-16) to
provide guidance to all federal agencies regarding the implementation of IPIA as
amended by IPERA. 2 OMB M-11-16 requires agencies to review all programs and
activities they administer, identify those that may be susceptible to significant erroneous
payments, and take mandatory actions to reduce any erroneous payments.

This guidance also requires Offices of Inspectors General to perform annual reviews of
their particular agency’s improper payments reporting. These reviews are to begin in FY
2012. 3 These reviews are to determine the agency’s compliance with IPERA and must
be completed within 120 days of the agency publishing its annual financial report
(AFR). 4 To be in compliance with IPERA an agency must: publish an annual financial
report; conduct a program specific risk assessment for each of its programs or activities;
issue improper payment estimates for all programs and activities; publish programmatic
corrective action plans in the annual financial report; issue annual reduction targets for
each program; report a gross improper payment rate of less than 10 percent for each
program and activity included in its improper payments report; and report information on
efforts to recapture improper payments.

Since FY 2001, GSA’s effort to eliminate and recover improper payments has been
managed by its Office of the Chief Financial Officer (OCFO). During this time, GSA has
periodically performed comprehensive risk assessments of its internal controls over
cash disbursements. In FY 2009, GSA performed its most recent comprehensive risk
1
  GAO-12-405T – Improper Payments Moving Forward with Governmentwide Reduction Strategies,
issued February 7, 2012.
2
  For the remainder of this report, “IPERA” will imply “IPIA, as amended by IPERA.” IPIA was the
authorizing legislation.
3
  The FY 2012 review will cover data reported for FY 2011.
4
  Agencies must convey the results of their IPERA reviews in its AFR.


                                               1
assessment; in this assessment no programs were identified as “high-risk.” 5 GSA
identified four medium risk programs, including: Building Operations; Reimbursable
Work Authorizations: Rental of Space: and the General Supplies and Services Portfolio.
Subsequently, these medium risk programs became the basis for GSA’s payment
recapture audit program. In FY 2011, GSA’s recovery audit focused on Public Buildings
Service (PBS) lease contracts, disbursements and utility contracts.

GSA reviews payments and transactions as part of its Continuous Monitoring Program
and receives support from a contractor in examining accounts payable and contract
processes used to identify overpayments and under deductions that are recoverable
from commercial vendors. The payment recapture audit program works with managers
to improve the efficiency and effectiveness of the recovery audit process from payment
review to claim collection. In the FY 2011 AFR, GSA reported that, since FY 2004, its
payment recapture audit program has identified $178.6 million in improper payments.

Objective

Our objective was to determine if GSA complied with IPIA as amended by IPERA.

See Appendix A – Purpose, Scope and Methodology for additional details.




5
  GSA’s definition of “high risk” is adopted from OMB’s definition of “significant improper payments” as
gross annual improper payments in the program exceeding (1) both 2.5 percent of program outlays and
$10 million of all program or activity payments during the fiscal year reported or (2) $100 million
(regardless of the improper payment percentage of total program outlays).


                                                   2
Results
We found GSA to be in compliance with IPERA in FY 2011; however improvements in
management controls are needed. GSA’s continued compliance relies on strengthening
management oversight and reporting its analysis of improper payments in a manner
consistent with financial reporting requirements.

Finding 1 – GSA’s process for reporting the results of its payment recapture audit
program need improvement.

GSA needs to properly define what constitutes the amounts it reports under IPERA.
IPERA requires agencies to report, in their AFR, the total amount of improper payments
identified for recovery, the total recovered, and the total amounts that remain
outstanding. The outstanding amounts are to be tracked via an aging schedule.

In its FY 2011 AFR, GSA reported a total of $13.5 million identified for recovery by the
payment recapture audit contractor, $11.8 million as the total actually recovered, and
$1.7 million as the total outstanding. However, GSA defined the total recovered as the
total amount of improper payments that have been approved, but not necessarily
collected and the total outstanding as amounts that are under review, but not
necessarily approved for collection. Therefore, we are unable to determine how
effective GSA has been in reducing and recapturing improper payments.

Additionally, while GSA maintains an aging schedule, we were unable to use it to derive
the actual amount outstanding and the actual amount collected.

Recommendations 1 and 2

We recommend the CFO:

      1. Report the identified, recovered and outstanding amounts related to
         improper payments in the payment recapture audit program in a manner
         consistent with financial reporting requirements; and
      2. Improve tracking and aging of all outstanding improper payment claims.

Finding 2 – GSA’s construction program was improperly excluded from the
payment recapture audit program.

GSA did not include its construction program, one of its major programs, in its FY 2011
IPERA reporting. IPERA requires agency heads to periodically review all programs and
activities that their agency administers, and identify those that may be susceptible to
significant improper payments. In its most recent comprehensive risk assessment (FY
2009), GSA identified the need for strengthening controls surrounding construction
payments. This was to be accomplished by expanding the review of improper payments
through post-payment review and through Recovery Audit. However, GSA did not



                                           3
include its construction program in its FY 2011 payment recapture audit program
because, as reported in the AFR, it was subject to other reviews.

In researching what constituted “other reviews,” we were advised that the construction
program’s payments are continuously reviewed by various components within the PBS
and by other internal control processes. In our opinion, “other reviews” and internal
control processes are insufficient justification for excluding a major agency program 6
from the payment recapture audit program. As required by IPERA guidance, if an
Agency determines that a program should not be included in its recovery auditing
program, it must provide justification and analysis for that determination within its AFR.

Recommendation 3

We recommend the CFO include all GSA programs and activities in its payment
recapture audit program.

Finding 3 – GSA may be using an improper source of funds to reimburse the
recapture audit contractor.

GSA used monies recovered from improper payments made through revolving funds to
reimburse its payment recapture audit contractor. As part of its payment recapture audit
program, GSA employed a contractor to help identify and recapture improper payments.
The contractor is paid a percentage of any funds it helps recover. During FY 2011, all
funds identified for recovery originated from a revolving fund specific to the Federal
Buildings Fund. OMB M-11-16 requires that “[a]ny overpayments from mandatory fund
accounts, trust fund accounts or special fund accounts (like revolving funds) revert to
those accounts ...". However, in FY 2011 GSA did not revert all amounts recovered but
used a portion of the recovered amounts to pay the contractor. We discussed this with
OMB and they concurred in our understanding of the issue.

Recommendation 4

We recommend the CFO seek clarification from OMB to ensure the proper source of
funds is used to reimburse the recapture audit contractor.

Finding 4 – The improper payments program management controls are
insufficient.

We observed instances in which the amounts approved for recapture by GSA’s regional
offices were not used when providing the results of the payment recapture audit
program in the AFR. Instead, GSA used the unadjusted gross amount of improper
payments as identified by the payment recapture audit contractor for this purpose.



6
 In FY 2009, GSA’s risk assessment documented that the total disbursements transactions for the new
construction and acquisition program totaled $549 million in FY 2008.


                                                  4
The payment recapture audit contractor reports to GSA the total amount they identified
as an overpayment. GSA’s internal controls include a regional review and process to
approve the amounts reported by the contractor. These amounts may be adjusted
depending on the supporting documentation. Not using the regional approved amounts
can result in a misstatement of improper payments in the AFR.

The Chief Financial Officers (CFO) Act requires Agency CFOs to develop and maintain
financial reporting and internal controls. These internal controls should provide for
complete, reliable, consistent, and timely information that is prepared on a uniform
basis.

Recommendation 5

We recommend the CFO issue official policy providing guidance to Agency personnel
regarding the reporting of improper payments and the implementation of the IPERA.

Finding 5 – The recovery audit contract does not contain all appropriate IPERA
and GSA directive references.

The payment recapture audit contract does not include a required clause calling for the
contractor to report credible evidence of potential fraud or related vulnerabilities.
Without this clause, contractors cannot be charged with negligence should they fail to
report instances of such problems to GSA and GSA’s OIG. IPERA guidance states that
the payment recapture audit contract shall include a clause requiring the contractor to
report credible evidence of potential fraud or vulnerabilities to fraud to the agency and
the agency's OIG. The contractor is also required to provide appropriate training to
contractor personnel on the identification of potential fraud.

Also, we noted that although the contract references the need to perform National
Agency Check and Inquiries Credit investigations on contractor personnel, it does not
specifically cite chapter six of GSA ADM P 9732.1D 7 as required. This chapter must be
referenced in all contracts which use the services of contract employees. Additionally, it
provides specific guidance to contracting officers for requesting investigations and
actions by the security office. By not citing this directive, GSA has no assurance that the
recapture audit contract employees have suitable clearances to access GSA’s
information systems and data.

Recommendation 6

We recommend the CFO review and modify, as necessary, the payment recapture audit
contract to ensure it contains all clauses required by applicable laws, regulations and
GSA orders.



7
    GSA ADM P 9732.1D – Suitability and Personnel Security.



                                                   5
Conclusion
We have determined, based on our test work, that GSA has complied with the Improper
Payments Information Act of 2002, as amended by the Improper Payments Elimination
and Recovery Act of 2010. However, GSA’s payment recapture audit program needs
additional management oversight and guidance to ensure the integrity of the program.


Management Comments

The Chief Financial Officer expressed general agreement with our findings and
recommendations. However, the CFO disagreed with finding 3 and plans to contact
OMB to discuss the issue further. We modified recommendation 4 to allow GSA to
consult with OMB. Management’s comments are included, in their entirety, as Appendix
B to this report.




                                         6
Appendix A – Purpose, Scope, and Methodology
                                                      Report Number A120002/B/F/F12002
Purpose

This audit was included in the GSA OIG annual audit plan for FY 2012 in compliance
with requirements of the Improper Payments Information Act of 2002 (IPIA) as amended
by the Improper Payments Elimination and Recovery Act of 2010 (IPERA) for FY 2011.

Scope

The audit reviewed GSA’s improper payments program for FY 2011.

Methodology

To accomplish our objectives, we:

   •   Reviewed the following:
       o Prior audits related to improper payments issued by the Government
          Accountability Office (GAO), GSA Office of Inspector General (OIG), and
          other federal agencies OIGs;
       o Public Laws, Executive Orders, Office of Management and Budget
          Memoranda and GAO guidance, and GSA directives, internal procedures and
          policies;
       o GSA’s:
           FY 2009 Improper Payments Integrity Act Report;
           Risk Assessment of FY 2008 Disbursements Report;
           FY 2011 Payment Recapture Audit Plan;
           FY 2011 Agency Financial Report, including supporting documentation
              provided by management for reported amounts;
           Report on Results of the Payment Recapture Audit for FY 2011; and,
           The aging schedule for outstanding payment recapture claims;
       o Supporting documentation for:
           GSA’s FY 2009 Risk Assessment; and,
           GSA’s FY 2011 Agency Financial Report;
       o Acquisition reviews performed by the Office of Acquisition Services;
       o A random sample of improper payment claims;
       o Statement of Work documentation related to the payment recapture audit
          contractor; and,
       o Organizational structure for the improper payments program;
   •   Conducted meetings or corresponded with:
       o GSA Improper Payments Personnel;
       o PBS Audit Liaison;
       o GAO/IG Audit Response Division; and,
       o OMB counsel;
   •   Obtained:
       o Access to the OMB Max Information System; and,


                                        A-1
       o An understanding of the agency’s pre-payment continuous monitoring
           process;
   •   Used guidance provided by the Council of Inspectors General for Integrity and
       Efficiency (CIGIE); and,
   •   Attended training opportunities provided to federal agencies relevant to improper
       payments.


We conducted the audit between October 2011 and January 2012 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Internal Controls

We limited our assessment of internal controls to those related to the OCFO's improper
payment recapture audit program. We reviewed the OCFO's procedures and processes
to assess compliance with IPIA and IPERA; the improper payments contract for
recapture audit services; and financial documentation to assess the effectiveness of the
controls. Based on our review we made recommendations to strengthen and improve
the controls discussed in the Results section of this report.




                                          A-2
Appendix B – Management Comments
                                   Report Number A120002/B/F/F12002




                        B-1
B-2
B-3
Appendix C – Report Distribution
Chief Financial Officer (B)

Director of Financial Policy and Operations (BC)

Director, Internal Control Division (BCB)

Audit Liaison, Office of the Chief Financial Officer (B)

Division Director, GAO/IG Audit Response Division (H1C)

Assistant IG for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




                                            C-1
